July 22, 2009

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: Final Management Advisory Report – Estimates of Postal Service Liability
         for Retiree Health Care Benefits (Report Number ESS-MA-09-001(R))

This report presents the results of our self-initiated review of the estimates of the U.S.
Postal Service’s Liability for Retiree Health Care Benefits (Project Number
09RO013ESS000). Our objective was to assess the reasonableness of the
assumptions used to estimate the liabilities. See Appendix A for additional information
about this review.

Assumption of 7 Percent Health Care Cost Inflation is Unreasonably High

The work of U.S Postal Service Office of Inspector General’s (OIG) actuarial consultant,
Hay Group, determined that the Office of Personnel Management’s (OPM) assumption
that the annual health care cost inflation rate will average 7 percent annually for all
future years is unreasonably high. Therefore based on OPM’s assumptions and
methodology, the Postal Service’s future retiree health care liabilities will be
overestimated.

If the Postal Service continues the payment schedule required by the Postal
Accountability and Enhancement Act of 2006 (the Act), our calculations indicate that the
Postal Service could overfund its retiree health care liability by $13.2 billion by the end
of fiscal year 2016. The Postal Service could pay on average $4.0 billion less each year
from FYs 2009 to 2016 to prefund its retiree health benefits and still achieve the same
level of funding anticipated under OPM’s assumptions. The net present value of the
interest savings from the reduced payments is $5.95 billion. We will report the
$5.95 billion monetary impact as funds put to better use1 in our Semiannual Report to
Congress. See Appendix B for our detailed analysis of this topic, Appendix C for our
detailed analysis of the monetary impact, and Appendix E for the Hay Group report.
(The Hay Group report deals with the general issue of funding the Postal Service
Retiree Health Benefits Fund (PSRHBF) and addresses a wide range of related
subjects.)

Postal Service officials have informed us that they have briefed various congressional
stakeholders as well as OPM to seek relief from the current Act payment schedule. We
believe the Postal Service should, based on the results of this review, further pursue


1
    Funds that could be used more efficiently by implementing recommended actions.
Estimates of Postal Service Liability for                                    ESS-MA-09-001(R)
Retiree Health Care Benefits


relief from the burdensome payments currently required. Therefore, we are making the
following recommendation:

We recommend the Postal Service Chief Financial Officer and Executive Vice
President:

1. Pursue legislative relief from the mandated schedule of payments into the Postal
   Service Retiree Health Benefit Fund.

Management’s Comments

Management concurred with our finding and recommendation. Management stated that
they will use this information to help support their continuing discussions with OPM, the
Postal Regulatory Commission, and Congress. Management did not validate the funds
put to better use, but agreed the savings would be substantial. See Appendix D for
management’s comments, in their entirety.

Evaluation of Management’s Comments

This is a reissued report due to a calculation error by the contractor found in the initial
study. The contractor corrected the error and the correction resulted in a $1.1 billion
change to the monetary impact. The management comments to the initial report were
responsive to our finding and recommendation and the actions planned should correct
the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed. We will report $5.95 billion in
funds put to better use in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Mohammad Adra, Executive
Director, Risk Analysis Research Center, or me at (703) 248-2100.

    E-Signed by Robert Mitchell
 VERIFY authenticity with ApproveIt




For Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment



                                              2
Estimates of Postal Service Liability for       ESS-MA-09-001(R)
Retiree Health Care Benefits



cc: Marie T. Dominguez
    Katherine S. Banks




                                            3
Estimates of Postal Service Liability for                                  ESS-MA-09-001(R)
Retiree Health Care Benefits


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In December 2006, President Bush signed the Act into law. The new legislation
required the Postal Service to prefund its retiree health benefits by paying an average of
$5.6 billion per year for 10 years into a newly-created Department of Treasury fund: the
Postal Service Retiree Health Benefits Fund (PSRHBF).

In 2003, Congress passed legislation (P.L. 108-18) giving the Postal Service pension
relief, because it was on track to overfund its Civil Service Retirement System (CSRS)
pension obligations. For 3 years, the Postal Service was allowed to retain the
difference in the reduced payments in the pension fund, but starting in FY 2006, the
Postal Service was required to place the difference in escrow. The Act ended the
escrow and also removed the Postal Service’s obligation to pay for military service
credits earned by its CSRS employees.

Because the Administration and Congress required the new law to be budget neutral,
the Act also required the Postal Service to make 10 payments to the Department of
Treasury, approximately equal to the annual amount of the reduced payment from the
escrow and military service relief, for the purpose of prefunding the Postal Service’s
retiree health care liability.

The PSRHBF was initially funded with the calculated amount by which the Postal
Service had already overfunded its CSRS liability ($17.1 billion) and the FY 2006
escrow payment ($3 billion). The Postal Service made the first of the 10 payments
($5.4 billion) on September 30, 2007, and its second payment ($5.6 billion) on
September 30, 2008. It is scheduled to make a $5.4 billion payment on or before
September 30, 2009.

In FY 2008, the Postal Service recorded a net loss of $2.8 billion. Had it not been for
the Act requirement to pay $5.6 billion into the PSRHBF at the end of FY 2008, the
Postal Service would have had a net income of $2.8 billion dollars. As of Quarter 2,
FY 2009, the Postal Service had a year-to-date net loss of $2.3 billion dollars. One-half
of the required September 30, 2009 Act payment, $2.7 billion, has been expensed for
Quarter 1 and Quarter 2 revenue. Had these charges not been expensed the Postal
Service would have had a net income of approximately $400 million as of the end of
Quarter 2, FY 2009.

The projected final FY 2009 Postal Service financial performance is bleak. The
following is taken from the Postal Service’s Quarter 2, FY 2009, Postal Service Form
10-Q, Quarterly Financial Conditions and Results Report:


        . . we have an obligation to pay $5.4 billion into the Postal Service Retiree
        Health Benefit Fund (PSRHBF), as required by the Postal Accountability and



                                             4
Estimates of Postal Service Liability for                                    ESS-MA-09-001(R)
Retiree Health Care Benefits


        Enhancement Act, P.L. 109-435. . . . We are also required to pay approximately
        $1.1 billion to the Department of Labor (DOL) for Workers’ Compensation in
        September 2009. We do not expect to generate sufficient cash flow from
        operations in the second half of 2009 to enable us to fully fund these obligations.

        Although we can fund some of these obligations through increased debt, our
        annual net increase in debt is limited by statute to $3 billion. We currently project
        increasing net debt outstanding this year by $3 billion but do not expect this to be
        sufficient to fund all our obligations. Without legislative change, described below,
        we project a cash shortfall of approximately $1.5 billion on September 30, 2009.
        If this happens, the Postal Service may be unable to pay certain obligatory
        payments due in September 2009. (Emphases added.)

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the reasonableness of the assumptions used to estimate
the Postal Service’s liability for retiree health benefits. To make this assessment, we
contracted with Hay Group, an actuarial firm that specializes in liability estimates. Hay
Group reviewed OPM’s assumptions for their reasonableness and benchmarked OPM’s
trend assumptions against other entities in the public and private sector. Hay Group
also calculated estimates of the Postal Service’s liabilities using OPM’s assumptions
and other more commonly used assumptions.

We conducted this review from February through June 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our objective. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our objective. We discussed our
observations and conclusions with management officials on June 16, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

There have been no prior audit reports related to the specific objectives of this review.




                                              5
Estimates of Postal Service Liability for                                  ESS-MA-09-001(R)
Retiree Health Care Benefits


                               APPENDIX B: DETAILED ANALYSIS

Assumption of 7 Percent Health Care Cost Inflation is Unreasonably High

Health Care Inflation Assumptions

The Hay Group conducted a survey to determine the average health care inflation rate
used by organizations when they estimate future retiree health care liabilities. They did
this for (a) Fortune 100 companies; (b) state and local governments; and (c) publicly
owned utilities.

Private Sector: Statement of Financial Accounting Standard (SFAS) 106 was issued by
the Financial Accounting Standards Board in 1990. It requires employers to account for
the cost of promised retiree medical and life insurance benefits ("postemployment
benefits other than pensions" — Other Post-Employment Benefits or OPEBs) on an
accrual accounting basis. Firms were not required to prefund the obligation. Under
SFAS 106, the employer selects the health care inflation rate used to project current
health care costs. Hay found the average health care inflation rate used by reporting
Fortune 100 companies was 5 percent.

Public Sector (excluding federal): Governmental Accounting Standards Board (GASB)
Statement 45 was issued in 2004. This statement requires governmental employers to
report on their OPEBs. They are not required to prefund the benefits. Hay found the
average health care inflation rate used by reporting public sector entities was
approximately 5 percent.

Publicly Owned Utilities: Many of the publically owned utilities sampled by the Hay
Group report under GASB 45, although, unless their regulator requires it, no accounting
board body sets standards for their OPEB reporting. Hay found the average health care
inflation rate used by reporting utilities was approximately 5 percent.

Postal Service Retiree Health Care Liabilities Under Hay Group Assumptions

Table 1 presents the Postal Service retiree health care liability and PSRHBF funding
data developed by the Hay Group. The discount rate and the average asset earnings
rate are assumed to be 6.25 percent and 5.35 percent, respectively.

The "OPM" row shows the Hay estimates using the OPM 7-percent health care inflation
rate assumption. At the end of FY 2016, the estimated retiree health care liability is
expected to be $129.4 billion. The PSRHBF assets are expected to be $103.7 billion and
the unfunded liability is $25.7 billion (80 percent funded).

Using the Hay Group assumptions, Table 1 ("Hay Group" row) shows that at the end of
FY 2016 the Postal Service will have a retiree health care liability of $90.5 billion and
asset funding of about $103.7 billion. Given the more reasonable health care inflation




                                             6
Estimates of Postal Service Liability for                                                         ESS-MA-09-001(R)
Retiree Health Care Benefits


rate assumption, the Postal Service will have over-funded its retiree health care liability
by $13.2 billion (115 percent funded).

Hay Group Alternative: We assumed that the Postal Service needs to achieve the same
FY 2016 unfunded liability ($25.7 billion) as estimated under the OPM scenario.
Table 1 shows that under the Hay Group alternative assumptions this is achieved by
having the Postal Service pay $1.57 billion per year in FYs 2009 to 2016. This would
improve the Postal Service's net income on average by about $4.0 billion per year. In
this alternative, the funded liability percentage would be 72 percent at the end of FY
2016.

House of Representatives bill, H.R. 22, (H.R. 22) provides for the Postal Service's
annual payments for current retiree health benefit costs to be paid from the PSRHBF
rather than by the Postal Service.2 In the row titled "Hay with H.R. 22" we assume that
the Postal Service needs to achieve the same 2016 funded liability percentage (80
percent) as estimated under the OPM assumptions and methodology. Table 1 shows
that under the Hay assumptions this can be achieved by having the Postal Service
continue to pay the average $5.6 billion per year into the PSRHBF while having the fund
pay current period retiree health benefits from FYs 2009 to 2016 (approximately $3.1
billion per year). This improves the Postal Service's net income by approximately $3.1
billion per year. Under this scenario, the funded liability percentage is 82 percent.




2
  The H.R. 22 scenario in this report describes the initial version of H.R. 22. The bill was amended on June 24, 2009,
after the first issuance of this report. Under the amended version of H.R. 22, Postal Service retiree health benefits
will be paid from the fund from FYs 2009 to 2011. The Postal Service will then resume payments for current retirees
from FYs 2012 to 2016.


                                                          7
     Estimates of Postal Service Liability for                                                ESS-MA-09-001(R)
     Retiree Health Care Benefits




                         Table 1. Prefunding Postal Service Retiree Health Care Benefits
                                              (Dollars in billions)

                                                                                                Avg. 
                            Health Care                                             Year       Annual 
                             Inflation                                Year 2016     2016      Payment 
                Work         (Percent‐       Year 2016     Year 2016  Unfunded     Percent       to 
                Force          age)          Liabilities    Assets     Liability   Funded     PSRHBF          Notes
                                                                                                           
   OPM        Declining           7              $129.4     $103.7      $25.7        80         $5.60 
                                                                                                               Over‐
                                                                                                              funded 
                                                                                                                by 
Hay Group     Declining           5              $90.5      $103.7      ($13.2)     115         $5.60         $13.2B
Hay Group‐
alternative   Declining           5              $90.5         $64.8    $25.7        72         $1.57      
                                                                                                           Percent 
Hay Group                                                                                                   Funded 
with H.R.                                                                                                   Similar 
    22        Declining           5               90.5         74.6      15.9        82         $5.60      to OPM




                                                           8
        Estimates of Postal Service Liability for                                                     ESS-MA-09-001(R)
        Retiree Health Care Benefits


                                       APPENDIX C: COST SAVINGS CALCULATION

        The OIG identified $5.95 billion as funds put to better use by altering the pre-funding
        schedule of the PSRHBF as per the Hay Group Study Alternative (See Appendix B).

                                                   Table 2. Total Monetary Impact

   Fiscal Year     2009       2010        2011       2012      2013      2014      2015      2016     2017    2018  Cumulative 
      The Act‐
     required 
   prefunding 
    payments 
    (millions)    $5,400    $5,500       $5,500    $5,600    $5,600    $5,700    $5,700    $5,800       $0      $0       $44,800 
Proposed pre‐
       funding 
    payments 
    (millions)    $1,570     $1,570      $1,570    $1,570    $1,570    $1,570    $1,570    $1,570       $0      $0       $12,560 

     Payment 
      savings 
    (millions)  $3,830   $3,930         $3,930     $4,030    $4,030    $4,130    $4,130    $4,230       $0      $0       $32,240 
   Cumulative 
      payment  
        savings 
     (millions)  $3,830   $7,760   $11,690   $15,720  $19,750  $23,880  $28,010  $32,240   $32,240   $32,240                     
       Interest 
      expense 
saved/interest 
       revenue 
         gained 
     @3.5%/yr     $134   $272        $409      $550     $691     $836     $980  $1,128   $1,128  $1,128                          
                                                                                          
       Interest 
      expense 
        savings 
 discounted at 
      3.5% /yr 
     (millions)   $134   $262        $382      $496     $602     $704     $798     $887      $857      $828               $5,950 


        Notes:
             (1)  Net present value of cumulative interest expense savings (millions):  $5,950 
         
             (2)  Postal Service cost of borrowing/discount rate:  3.50%    
                  (Source: http://blue.usps.gov/cape/_pdf/May%202009.pdf) 


        Technical explanation/assumptions:

             1. The payment savings shown previously will presumably have to be paid at some
                future indefinite date. Therefore, the monetary benefit of the reduced payment
                schedule flows from the "time value of money," either the interest expense saved
                or the interest revenue gained, depending, in any year, on whether Postal
                Service is a net debtor. The payment savings would be used to avoid current


                                                                   9
Estimates of Postal Service Liability for                                   ESS-MA-09-001(R)
Retiree Health Care Benefits


        borrowing, pay down existing debt, be deposited into Postal Service bank
        accounts or other investments, or any combination.

    2. The interest rate and the discount rate are assumed to be the current published
       Postal Service Cost of Borrowing, 3.5 percent per year.

    3. The Act prefunding payments are those required by current law. The proposed
       prefunding payments are derived from information in the Hay Group study.

    4. OIG policy provides for a 10-year time frame for discounted cash flow
       calculations.

    5. The net present value of the interest rate savings, $5.95 billion, will be reported
       as funds put to better use in the OIG Semi-annual Report to Congress (SARC).
       This represents the opportunity cost of not having the funds available for use in
       those years.




                                             10
Estimates of Postal Service Liability for                    ESS-MA-09-001(R)
Retiree Health Care Benefits



                         APPENDIX D: MANAGEMENT’S COMMENTS




                                            11
Estimates of Postal Service Liability for                     ESS-MA-09-001(R)
Retiree Health Care Benefits


                               APPENDIX E: HAY GROUP REPORT




                                            12
